APPENDIX

TABLE OF CONTENTS
Page
Opinion of the United States Court of Appeals
for the Seventh Circuit, LeDure v. Union Pac.
R.R. Co., No. 19-2164 (June 17, 2020) ...................... App. 1
Memorandum and Order of the United States
District Court for the Southern District
of Illinois Granting Motion for Summary
Judgment, LeDure v. Union Pac. R.R. Co., No.
3:17-cv-00737 (January 31, 2019) .............................. App. 7
Memorandum and Order of the United States
District Court for the Southern District of
Illinois Denying Motion to Alter or Amend,
LeDure v. Union Pac. R.R. Co., No. 3:17-cv00737 (May 20, 2019) ................................................ App. 23
Order of the United States Court of Appeals
for the Seventh Circuit Denying Rehearing,
LeDure v. Union Pac. R.R. Co., No. 19-2164
(July 16, 2020) ........................................................... App. 29
Statutes and Regulations Involved: ........................ App. 31
45 U.S.C. §51........................................................ App. 31
45 U.S.C. §53........................................................ App. 32
45 U.S.C. §54a...................................................... App. 32
45 U.S.C. §20301.................................................. App. 33
45 U.S.C. §20302.................................................. App. 33
45 U.S.C. §20701.................................................. App. 36

49 C.F.R. §229.1 ................................................... App. 36
49 C.F.R. §229.21 ................................................. App. 36
49 C.F.R. §229.119 ............................................... App. 38

App. 1
IN THE
UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT
No. 19-2164
BRADLEY LEDURE,
Plaintiff-Appellant,
v.
UNION PACIFIC RAILROAD COMPANY,
Defendant-Appellee.

Appeal from the United States District Court
for the Southern District of Illinois.
No. 3:17-cv-00737-JPG-GCS — J. Phil Gilbert, Judge.
Argued February 12, 2020 — Decided June 17, 2020

Before: BAUER, KANNE, and BARRETT, Circuit Judges.
BAUER, Circuit Judge. Bradley LeDure, a conductor
for Union Pacific Railroad Company, slipped and fell
while preparing a locomotive for departure. LeDure
brought suit for negligence against Union Pacific under
the Locomotive Inspection Act and the Federal
Employers’ Liability Act. The district court granted
summary judgment for Union Pacific. It found the
Locomotive Inspection Act inapplicable and then
determined that LeDure’s injuries were otherwise
unforeseeable because he slipped on a small “slick
spot” unknown to Union Pacific. For the following
reasons, we affirm.

App. 2
I. BACKGROUND
On August 12, 2016, at about 2:10 a.m., LeDure
reported to work at a rail yard in Salem, Illinois. His job
was to assemble a train for a trip to Dexter, Missouri. The
first step was to determine how many locomotives were
necessary and tag each one to indicate whether or not
they would operate.
Three locomotives were coupled together on
a sidetrack. The locomotives arrived at 2:00 a.m.
from Chicago, Illinois. LeDure decided that only one
locomotive would be powered on. LeDure tagged the
first locomotive for operation and the second for nonoperation. He moved to the final locomotive, UP5683, to
shut it down and tag it accordingly.
While on the exterior walkway of UP5683, LeDure
slipped and fell down its steps. LeDure got up and
proceeded to power down and tag the locomotive.
He returned to where he fell and, using a flashlight,
bent down to identify a “slick” substance. LeDure
reported the incident to his supervisor. He gave a written
statement before going home. Union Pacific conducted
an inspection and reported cleaning a “small amount of
oil” on the walkway.
LeDure sued Union Pacific for negligence. He alleged
violations of the Locomotive Inspection Act and the
Federal Employers’ Liability Act, arguing that Union
Pacific failed to maintain the walkway free of hazards.
Both parties moved for summary judgment. The district
court agreed with Union Pacific and dismissed LeDure’s
claims with prejudice. The court found the Locomotive
Inspection Act inapplicable since UP5683 was not “in
use” during the incident. It also held LeDure’s injuries
were not reasonably foreseeable because they resulted
from a small “slick spot” unknown to Union Pacific.

App. 3
LeDure moved to alter or amend the judgment, and the
court denied the motion. LeDure timely appealed.
II. DISCUSSION
We review de novo the grant of summary judgment.
Kopplin v. Wis. Cent. Ltd., 914 F.3d 1099, 1102 (7th Cir.
2019). Summary judgment is required if “there is no
genuine dispute as to any material fact and the movant
is entitled to judgment as a matter of law.” Fed.R.Civ.P.
56(a). A court will grant summary judgment against a
party “who fails to make a showing sufficient to establish
the existence of an element essential to that party’s case,
and on which that party will bear the burden of proof at
trial.” Bio v. Fed. Express Corp., 424 F.3d 593, 596 (7th
Cir. 2005).
The Locomotive Inspection Act and the Federal
Employers’ Liability Act together provide redress for
injured railroad workers. Specifically, the Locomotive
Inspection Act supplements a Federal Employers’
Liability Act negligence claim. The Locomotive
Inspection Act delegates authority to the Secretary of
Transportation to create regulations delineating the safe
“use” of locomotives. 49 U.S.C. § 20701. If the plaintiff
shows a regulatory violation, this establishes negligence
per se. The plaintiff must still show, per the Federal
Employers’ Liability Act, the injury resulted “in whole
or in part” from this negligence. Crane v. Cedar Rapids
Iowa City Ry., 395 U.S. 166 (1969) (citing 45 U.S.C. § 51).
The first question for the Locomotive Inspection Act
is whether the locomotive was “in use” at the time of the
accident. Brady v. Terminal Rail Ass’n of St. Louis, 303
U.S. 10, 13 (1938); Lyle v. Atchison T. & S.F. Ry. Co.,
177 F.2d 221, 222 (7th Cir. 1949). The district court noted
the circuit courts’ various tests. For instance, while the
Fourth Circuit created a totality of the circumstances

App. 4
analysis, the Fifth Circuit has said a locomotive is “in
use” if it is assembled and the crew has completed predeparture procedures. Deans v. CSX Transportation,
Inc., 152 F.3d 326, 329 (4th Cir. 1998); Trinidad v.
Southern Pacific Transportation Co., 949 F.2d 187, 189
(5th Cir. 1991).
In determining that UP5683 was not in use, the
district court properly applied Lyle and its holding that
“to service an engine while it is out of use, to put it in
readiness for use, is the antithesis of using it.” Lyle, 177
F.2d at 223. LeDure essentially seeks to limit this holding
to say a locomotive is not “in use” only when it is being
repaired, but this is an unduly narrow reading of Lyle
and its progeny. See Tisneros v. Chicago & N.W. Ry. Co,
197 F.2d 466 (7th Cir. 1952). The district court reasoned
that UP5683 was stationary, on a sidetrack, and part of a
train needing to be assembled before its use in interstate
commerce. For those reasons, we agree it was not “in
use” and that the Locomotive Inspection Act and its
regulations are inapplicable.
LeDure argues that Union Pacific is nevertheless
liable because it did not clean up the slick spot or
alternatively because UP5683’s walkway traction was not
adequately maintained. For claims about unsafe work
conditions, an essential element of a Federal Employers’
Liability Act claim is foreseeability, or whether there
were “circumstances which a reasonable person would
foresee as creating a potential for harm.” Holbrook v.
Norfolk Southern Ry. Co., 414 F.3d 739, 742 (7th Cir.
2005) (quoting McGinn v. Burlington N. R.R., 102 F.3d
295, 300 (7th Cir. 1996)). The plaintiff “must show that
the employer had actual or constructive notice of those
harmful circumstances.” Id. (citing Williams v. Nat’l
R.R. Passenger Corp., 161 F.3d 1059, 1063 (7th Cir.1998)).

App. 5
The district court correctly held that LeDure failed
to provide evidence sufficient to prove his injuries were
reasonably foreseeable. Whereas the Holbrook plaintiff
identified the potential source of oil he slipped on,
LeDure does not claim Union Pacific had notice of the
slick spot or any hazardous condition that could have
leaked the oil. Instead, he argues that Union Pacific
should have inspected UP5683 and cleaned the spot
beforehand. But, as in Holbrook, there is no evidence that
an earlier inspection would have cured the hazard. This
is problematic when LeDure testified the spot was small,
isolated, and without explanation. Under these facts, a
jury could not find Union Pacific knew or should have
known about the oil or its hazard to LeDure.
Finally, LeDure argues the district court failed to
address his argument that UP5683’s walkway was not
adequately maintained. This is inaccurate. LeDure
introduced pictures of UP5683’s walkway two years after
the incident and pictures of another locomotive walkway
that did not use metal studs for traction. As the district
court noted, LeDure presented evidence to support a
design-defect theory but nothing to show negligence.
Just as importantly, the cause of his injury was
undisputedly the slick spot and there is no evidence—
aside from LeDure’s lay testimony—to suggest the
alternate design pattern could have prevented his injury.
III. CONCLUSION
We conclude that the Locomotive Inspection Act and
its regulations are inapplicable since UP5683 was not
“in use” at the time of LeDure’s injury. We further hold
that LeDure’s injuries were not reasonably foreseeable
under the Federal Employers’ Liability Act and thus
Union Pacific breached no duty of care. For those
reasons, we AFFIRM the grant of summary judgment for
Union Pacific.

App. 6

App. 7
UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF ILLINOIS
Case No. 3:17-cv-00737-JPG-GCS
BRADLEY LEDURE,
Plaintiff,
v.
UNION PACIFIC RAILROAD COMPANY,
Defendant.
MEMORANDUM AND ORDER

J. PHIL GILBERT, DISTRICT JUDGE
Plaintiff Bradley LeDure was injured on the job.
He then brought suit against his employer—Union
Pacific Railroad Company—arguing that he is entitled
to damages under the Federal Employers’ Liability Act.
The parties have now filed cross-motions for summary
judgment, and in their aftermath, the Court GRANTS
summary judgment in favor of Union Pacific.
I. BACKGROUND
At 2:10 AM on a summer morning, Bradley LeDure—
an engineer for Union Pacific Railroad Company—
showed up for work at the train depot in Salem, Illinois.
(LeDure Dep., ECF No. 49-1, 77:3–78:17.) LeDure’s
assignment that morning was a train that arrived the
previous day and was now sitting on the “back track” of
the depot: a dimly lit separate track that diverges from
the main track at north end of the depot, runs around the
back side of the yard, and reattaches back at the south

App. 8
end of the depot. (Id. at 79:13–21; 88:10–16; Steve Hotze
Dep., ECF No. 55-2, 21:9–23:6.) This particular train had
three locomotives—the cars that generate power to pull
the entire train along—leading it. (LeDure Dep., ECF No.
49-1, 81:14–17.)
LeDure needed to do a few things with the train that
morning. First, he needed to determine how many of
the three locomotives should be powered on in order
to provide enough juice for the train’s next trip. (Id. at
77:15-22.) Second, he needed to physically enter the
cab on each locomotive, turn the locomotive on or off
according to how much power was needed, and place a
tag indicating as such for the engineer at the next station.
(Id. at 76:8–12; 77:8–14; 77:23–78:12.) And third, LeDure
and some of his coworkers had to make a few moves in
the yard to add and/or remove certain cars from the train
to get it ready for its next trip. (Id. at 83:8–15.) So here,
LeDure determined that only the first locomotive needed
power, and he climbed aboard with his flashlight to begin
the tagging process.
The problem in this case is that LeDure slipped while
on the walkway of the third locomotive—owned by
Union Pacific—allegedly leading to serious injuries of his
“shoulders, spine, back, neck, left and right hand/fingers,
and head[.]” (Id. at 98:18–99:17; Am. Compl. ¶ 11, ECF
No. 22.) LeDure says that he did not see anything before
his fall—and even that he stood right back up afterwards,
entered the cab, and tagged it. (Id. at 105:8–13; 108:21–
109.17.) LeDure then walked back to where he fell and
“kind of lean[ed] over and get the light down closer
to it [and] notice[d] that there was a little something
there”—“a greasy or oil-type substance.” (Id. at 85:5–6,
110:16–24.) LeDure specifically testified:
A. I don’t know exactly what the substance was,
but it was greasy like.

App. 9
Q. Grease and oil are two different things. So I just
want to make sure, are you saying it was like
grease? Or was it more like oil?
A. I don’t know what the substance was exactly.
I have no idea to tell you if it was a certain
substance or another substance.
Q. Did you reach down and touch it at all?
A. Yes.
Q. What did it feel like?
A. It was slick.
Q. So it felt like it was slick?
A. Uh-huh.
Q. So more like an oil?
A. I don’t know. I don’t know exactly what the
substance was. I would be speculating to
answer that question.
(Id. at 85:5–24.)
LeDure then said that he did not know where the
substance could have come from. (Id. at 6–10.) And a
corporate designee for Union Pacific later confirmed
that there were no components in the architecture of the
locomotive near that area that could have leaked and
caused the “slick spot.” (Thomas Kennedy Dep., ECF
No. 49-5, 42:1–12.) Regardless, LeDure continued with
his morning duties, rearranged some cars on the train
with a coworker, parked the train—and then reported his
injuries to Union Pacific and went home. (LeDure Dep.,
ECF No. 192:12–194:7, 194:8–196:5, 84:16–85:1.)
Later, LeDure sued Union Pacific in this Court for
violations of two interrelated statutes:

App. 10
(1) the Federal Employers’ Liability Act, 45 U.S.C.
§§ 51–60; and (2) the Locomotive Inspection Act, 49 U.S.C.
§§ 20701–03. LeDure’s specific theories are numerous—
he says that Union Pacific failed to maintain the train in
a condition that was safe to operate; failed to adequately
inspect the train; failed to provide him with a safe place,
conditions, and equipment to work; failed to properly
treat the floors of the train and provide secure footing;
and more. Both parties have now filed cross motions for
summary judgment.
II. LEGAL STANDARDS
The Court must grant summary judgment “if the
movant shows that there is no genuine dispute as to any
material fact and the movant is entitled to judgment as
a matter of law.” FED. R. CIV. P. 56(a); see also Celotex
Corp. v. Catrett, 477 U.S. 317, 322 (1986); Spath v. Hayes
Wheels Int’l-Ind., Inc., 211 F.3d 392, 396 (7th Cir. 2000).
The Court must construe the evidence in the light most
favorable to the nonmoving party and draw all reasonable
inferences in favor of that party. See Anderson v. Liberty
Lobby, Inc., 477 U.S. 242, 255 (1986); Chelios v. Heavener,
520 F.3d 678, 685 (7th Cir. 2008); Spath, 211 F.3d at 396.
The initial summary judgment burden of production
is on the moving party to show the Court that there
is no reason to have a trial. Celotex, 477 U.S. at 323;
Modrowski v. Pigatto, 712 F.3d 1166, 1168 (7th Cir. 2013).
When responding to a motion for summary judgment, the
nonmoving party may not simply rest upon the allegations
contained in the pleadings, but must present specific
facts to show that a genuine issue of material fact exists.
Celotex, 477 U.S. at 322– 26; Anderson, 477 U.S. at 256–57;
Modrowski, 712 F.3d at 1168. A genuine issue of material
fact is not demonstrated by the mere existence of “some
alleged factual dispute between the parties,” Anderson,
477 U.S. at 247, or by “some metaphysical doubt as to the

App. 11
material facts.” Matsushita Elec. Indus. Co. v. Zenith
Radio Corp., 475 U.S. 574, 586 (1986). Rather, a genuine
issue of material fact only exists if “a fair-minded jury
could return a verdict for the [nonmoving party] on the
evidence presented.” Anderson, 477 U.S. at 252.
III. ANALYSIS
The two statutes at issue here—The Federal
Employers’ Liability Act (FELA) and the Locomotive
Inspection Act—work in tandem. FELA is a “broad
federal tort remedy for railroad workers injured on the
job.” Crompton v. BNSF Ry. Co., 745 F.3d 292, 296 (7th
Cir. 2014) (quoting Williams v. Nat’l R.R. Passenger
Corp., 161 F.3d 1059, 1061 (7th Cir. 1998)). The standards
are simple: a plaintiff must prove the elements of
negligence—duty, breach, cause, and harm—in order
to prevail. Id. (citing Fulk v. Illinois Cent. R.R. Co., 22
F.3d 120, 124 (7th Cir. 1994)). But FELA comes with a
gift to plaintiffs: their burden of proof on the element
of causation is even lower than standard negligence.
CSX Transp., Inc. v. McBride, 564 U.S. 685, 692 (2011).
This standard of proof is so low, in fact, that the Seventh
Circuit has repeatedly referred to it as “scarcely more
substantial than pigeon bone broth.” Green v. CSX
Transp., Inc., 414 F.3d 758, 766 (7th Cir. 2005) (quoting
Harbin v. Burlington Northern R.R. Co., 921 F.2d 129,
132 (7th Cir. 1990)).
The Locomotive Inspection Act, on the other hand,
is a supplemental amendment to FELA that imposes
specific duties on railroad carriers—and it does so by
delegating authority to the Secretary of Transportation
to promulgate regulations dealing with the safe “use”
and operation of locomotives. 49 U.S.C. § 20701. Ward v.
Soo Line R.R. Co., 901 F.3d 868, 873 (7th Cir. 2018), reh’g
denied (Sept. 21, 2018). Specifically, if a plaintiff shows
that a railroad carrier violated one of the corresponding

App. 12
regulations, then such a violation is negligence per se
under the Federal Employers’ Liability Act. Coffey v. Ne.
Illinois Reg’l Commuter R. Corp. (METRA), 479 F.3d
472, 474 (7th Cir. 2007). This means (1) a plaintiff does
not need to prove that the violation proximately caused
his injury; and (2) that the defendant may not argue that
the plaintiff engaged in any contributory negligence.
O’Donnell v. Elgin, Joliet & Eastern Ry. Co., 338 U.S.
384, 390 (1949); 45 U.S.C. §§ 53–54.
So FELA and the Locomotive Inspection Act work in
harmony—a plaintiff can bring a broad negligence claim
against a carrier under FELA, but at the same time bring
a negligence per se claim against the carrier under the
Locomotive Inspection Act if the carrier violated one of
its corresponding regulations. And that is what LeDure
does here. Count I alleges that Union Pacific violated the
Federal Employers’ Liability Act under theories of both
simple negligence as well as negligence per se pursuant
to certain regulations under the Locomotive Inspection
Act, while Count II directly alleges violations of the same
Locomotive Inspection Act regulations mentioned in
Count I. (See generally ECF No. 22.)
A. The Locomotive Inspection Act
The first issue here is whether LeDure’s Locomotive
Inspection Act theory—which is predicated on violations
of numerous U.S. Department of Transportation
regulations—may proceed at all. The statute says:
A railroad carrier may use or allow to be used
a locomotive or tender on its railroad line only
when the locomotive or tender and its parts and
appurtenances—
(1) are in proper condition and safe to operate
without unnecessary danger of personal injury;

App. 13
(2) have been inspected as required under
this chapter and regulations prescribed by
the Secretary of Transportation under this
chapter; and
(3) can withstand every test prescribed by the
Secretary under this chapter.
49 U.S.C. § 20701 (emphasis added).
Accordingly, the locomotive in question must be
“in use” at the time of the accident for the Locomotive
Inspection Act to apply. Lyle v. Atchison T. & S.F. Ry.
Co., 177 F.2d 221, 222 (7th Cir. 1949), cert. denied 339
U.S. 913 (1950). “In other words, when a locomotive
or car is in ‘use on the line,’ the mandatory duty of the
carrier attaches; and, when the car or engine is not so
‘in use,’ then the duty under the express provision of the
statute does not exist.” Id.; see also Wright v. Arkansas
& Missouri R.R. Co., 574 F.3d 612, 620 (8th Cir. 2009);
Trinidad v. Southern Pac. Transp. Co., 949 F.2d 187,
189 (5th Cir. 1991); Deans v. CSX Transp., Inc., 152 F.3d
326, 329 (4th Cir. 1998); Brady v. Terminal R. Ass’n of
St. Louis, 303 U.S. 10, 13–14, 58 S.Ct. 426, 82 L.Ed. 614
(1938). This question is a matter of law for the Court to
decide. Steer v. Burlington Northern, Inc., 720 F.2d 975,
976 (8th Cir. 1983).
The problem, however, is that there is no clear-cut test
to determine when a locomotive is “in use.” The seminal
Seventh Circuit case on the matter—dating back to 1949—
asked whether “the use of the engine in transportation
had for the time being been abandoned…[and] its use in
commerce had come to an end.” Lyle, 177 F.2d at 222. The
locomotive in Lyle was in a roundhouse for inspection
and repairs, so the Seventh Circuit instructed: “To service
an engine while it is out of use, to put it in readiness for
use, is the antithesis of using it.” Lyle, 177 F.2d at 223.
But since Lyle did not create any sort of concrete test or

App. 14
set of guidelines, federal district courts—and even state
courts, which FELA grants concurrent jurisdiction to in
certain circumstances—applying the case are all over
the map. Both parties in this case accordingly point to
an abundance of district court opinions in their favor,
but given their sheer number and contrasting outcomes,
none of them are very instructive.
Other United States Courts of Appeals are also all
over the place. The Tenth Circuit has said that “in use”
means “used in moving interstate or foreign traffic.”
Estes v. Southern Pacific, 598 F.2d 1195, 1198 (10th Cir.
1979). The Fourth Circuit has said that this is a totality
of the circumstances test, but the most important factors
are (1) where the train was located; (2) if the train was
stationary, what time the train was scheduled to depart;
and (3) what the injured party was doing at the time of
the accident. Deans v. CSX Transportation, Inc., 152
F.3d 326, 329–30 (4th Cir. 1998). The First Circuit gets a
bit more specific: if the locomotive is running on the yard
track and ready to move into service, and the worker
was injured while performing pre-departure inspection
duties, then the locomotive is “in use.” McGrath v.
Consolidated Rail Corp., 136 F.3d 838, 842 (1st Cir. 1998).
And the Fifth Circuit has the strictest test: the locomotive
is not “in use” until it is fully assembled and the crew has
completed those predeparture inspections. Trinidad v.
Southern Pacific Transportation Co., 949 F.2d 187, 189
(5th Cir. 1991).
Here, after reviewing all of the circumstances in this
case, Union Pacific’s locomotive was not “in use” at the
time of LeDure’s accident. To harken back to the Seventh
Circuit’s first instruction: “To service an engine while it is
out of use, to put it in readiness for use, is the antithesis of
using it.” Lyle, 177 F.2d at 223. And here, although LeDure
was not repairing the locomotive in a roundhouse like in
Lyle, LeDure was nevertheless putting the locomotive

App. 15
“in readiness for use” when he slipped: the train was (1)
stationary; (2) on a backtrack in the depot yard; (3) had
not yet been inspected or tagged; and (4) perhaps most
importantly, the engineers had not yet assembled the
cars on the train for its next use in interstate commerce.
In fact, LeDure specifically said at his deposition that
“the train was not set up and ready to go.” (LeDure Dep.,
ECF No. 49-1, 83:9–10.) LeDure later explained just how
much work needed to be done before the train would be
ready for its next use in interstate commerce:
Q. Just tell me what switching you did that morning.
A. I can’t recall if we set out or we picked up,
but we had to make a couple of moves on a
couple of different tracks and then put our
train back together.
Q. Were you able to do that safely?
A. I thought I did, yes.
Q. So how many different moves did you have to
make to do that switching?
A. I would be estimating because I don’t recall
exactly.
Q. What is your estimate?
A. More than three.
(Id. at 193:18–194:7.) There was still a considerable
amount of work to be done before this locomotive was
ready for its next trip in interstate commerce, and that is
the “antithesis of using it.” Lyle, 177 F.2d at 223.
And these facts would lead to the same conclusion
in other circuits. Trinidad, 949 F.2d at 189 (locomotive
not “in use” when the train was not yet fully assembled);
McGrath, 136 F.3d at 842 (locomotive not “in use” if
the train is not ready to move into service); Estes v.

App. 16
Southern Pacific, 598 F.2d at 1198 (locomotive not “in
use” if it is not moving interstate traffic). Even Deans v.
CSX Transportation, Inc., 152 F.3d 326 (4th Cir. 1998)—
which LeDure relied on heavily at oral argument—does
not compel a different conclusion: there, a train was “in
use” even when sitting on a back track, but only because
it was ready for “imminent departure.” 152 F.3d at 330.
Here, LeDure’s own testimony demonstrates that the
train was not close to ready for “imminent departure”
when he slipped—there was still a considerable amount
of prep work to be done.
Since the locomotive was not “in use” at the time
of the accident, there is a lot of collateral damage to
the rest of the motions and the complaint in this case.
49 U.S.C. § 20701—the opening bit of the Locomotive
Inspection Act—instructs that a locomotive must be “in
use” for it to apply, and then delegates authority to the
Secretary of Transportation to promulgate regulations
to implement the statute. But since the locomotive here
was not “in use,” none of those regulations apply to this
case. This means that the Court must dismiss the entirety
of Count II of the first-amended complaint, as well as
¶¶ 10(e)–(i) of Count I—which are all predicated on
Department of Transportation regulations promulgated
pursuant to the Locomotive Inspection Act. Moreover,
any further arguments in the motions pertaining to the
regulations—such as whether 49 C.F.R. § 229.119(c)
applies to exterior walkways; or whether LeDure is
entitled to partial summary judgment based on Union
Pacific’s alleged violation of any of the regulations (ECF
No. 50)—are moot. This also extends to Union Pacific’s
motion regarding the tread patterns on the locomotive
walkway (ECF No. 46): the company had argued that the
regulations preclude LeDure from arguing that Union
Pacific should have installed a different tread design
on the walkways, because such a theory is actually a

App. 17
design defect claim. LeDure had responded that he is not
brining a design defect claim, but is simply arguing that
49 C.F.R. § 229.119(c) requires railroads to properly treat
locomotive floors—and Union Pacific failed to do so. But
since the regulations do not apply to this case, all of that
it moot as well.
B. The Federal Employers’ Liability Act
Even though the locomotive was not in use, LeDure
still may have recourse under the Federal Employers’
Liability Act—and all he has to do is show that Union
Pacific is liable in standard negligence in order to prevail.
Crompton, 745 F.3d at 296. Union Pacific argues that
they are entitled to summary judgment on this theory
as well because LeDure’s injury was not reasonably
foreseeable—basically, that LeDure has not demonstrated
“circumstances which a reasonable person would
foresee as creating a potential for harm.” Holbrook v.
Norfolk Southern Railway Co., 414 F.3d 739, 742 (7th
Cir. 2005). LeDure can do this in two ways: he can
show that (1) Union Pacific had actual notice of the
condition—meaning that they knew about the risk and
failed to act—or (2) Union Pacific had constructive
notice of the condition—meaning that they could have
taken reasonable steps ahead of time to learn about the
condition, but failed to do so. Id.; Zuppardi v. Wal-Mart
Stores, Inc., 770 F.3d 644, 651 (7th Cir. 2014).
LeDure can do neither, in a very similar vein to
Holbrook. There, an employee for Norfolk Southern
was injured when he slipped while climbing a ladder.
And once he hit the ground, he noticed “a sticky, oily
substance on the rung, which he wiped off with a paper
towel.” 414 F.3d at 741. Holbrook then sued Norfolk
Southern under FELA, and although he did “not know
whether the substance was on the ladder before he came
to it or [if he] tracked [the oil] onto it from somewhere

App. 18
else,” Holbrook claimed that the substance must have
come from the train yard where there sometimes were
pools of oil on the ground. Id. So Holbrook first argued
that Norfolk Southern had actual notice of the condition
because of those occasional pools of oil in the yard that
everyone knew about, but the Seventh Circuit rejected
that—stating “Holbrook simply offers no evidence that
he was in the vicinity of an accumulated oil pool on the
day of the accident, or that any such accumulation even
then existed [on that particular day],” so “it would not be
reasonable to infer that putative pools of accumulated oil
in the Elkhart Yard played a part in Holbrook’s injury.”
Id. at 744.
And here, there is also no evidence that Union Pacific
had actual notice of the “greasy or oil-type substance”
that LeDure slipped on. In fact, LeDure himself could not
identify the source of the substance or even what it was:
he said “I don’t know what the substance was exactly.
I have no idea to tell you if it was a certain substance
or another substance.” (LeDure Dep., ECF No. 49-1,
85:11–13.) And there is no evidence that Union Pacific
saw this substance before LeDure did— even LeDure did
not see it until he brought himself to “kind of lean over
and get the light down closer to it to notice that there
was a little something there.” (Id. at 110:16–24.)
So LeDure instead relies on a theory of constructive
notice—namely that Union Pacific should have inspected
the locomotive before they sent LeDure out to work
on it. But the employee in Holbrook brought a similar
argument, yet the Seventh Circuit very quickly rejected
that one as well. In Holbrook, Norfolk Southern failed to
catch the alleged slick spot during their last inspection,
but the Seventh Circuit reasoned:
[A]ccording to the plaintiff, if the grease was on
the ladder before he came to it, the inspectors

App. 19
should have discovered it. However, there is
absolutely no evidence that the grease was on
the ladder before Holbrook stepped on it. And
even assuming that the grease was on the ladder
before Holbrook stepped on it, there are a myriad
of possible ways the substance could have gotten
onto the ladder between the railcar’s inspection
and its contact with Holbrook (e.g., splatter
from a passing train on adjacent tracks, residue
from mounting by another employee). Holbrook
himself conceded that, if the dab of grease was
on the ladder before he stepped on it, it could
have attached sometime after the car’s inspection.
Because plaintiff’s constructive notice argument
“rests on mere speculation and conjecture,” it too
must fail. See Deans v. CSX Transp., Inc., 152
F.3d 326, 330 (4th Cir. 1998) (affirming grant of
summary judgment against FELA plaintiff where
plaintiff “introduced no evidence to show that an
earlier inspection would have revealed or cured
the [defective condition], or that the railroad had
notice of the defect prior to the accident”).
414 F.3d at 744–45.
The facts here are nearly identical: LeDure has
introduced no evidence that the small slick spot was on
the walkway before he stepped on it—which is especially
concerning considering he testified that he wears the very
same work boots around his farm. (LeDure Dep., ECF
No. 49-1, 173:22–174:3.) And even assuming that the spot
was there before he stepped on it, “there are a myriad of
possible ways the substances could have gotten onto”
the walkway, just as outlined in Holbrook. 414 F.3d. at
475. And what is more, LeDure also testified that he “did
not see anything that looked like it was coming out of the
engine compartments”—making his theory even more
hazy. (LeDure Dep., ECF No. 49-1, 87:16–20.) The same

App. 20
was confirmed by Union Pacific’s corporate designee,
who testified that there were no components in the
architecture of the locomotive near that area that could
have leaked and caused the slick spot. (Thomas Kennedy
Dep., ECF No. 49-5, 42:1–12.)
And although this case is factually distinguishable
from Holbrook on the grounds that the inspection here
had not occurred yet, it does not make any difference—
LeDure’s constructive notice argument still would rest on
“on mere speculation and conjecture” that an inspection
would have turned something up—which is doubtful
considering how difficult it was for LeDure to find
this slick spot in the first place. Id. Just as the Fourth
Circuit said in Deans—a case that LeDure relied heavily
on at oral arguments—summary judgment is proper
when a plaintiff “introduced no evidence to show that
an earlier inspection would have revealed or cured the
[defective condition].” Deans, 152 F.3d at 330. And that is
exactly what happened here—LeDure has introduced no
evidence to show that an earlier inspection would have
revealed this small, mysterious “slick spot.” So LeDure’s
standard negligence theory under FELA fails as well.
CONCLUSION
For the foregoing reasons, the Court:
•

GRANTS Union Pacific’s motion for summary
judgment (ECF No. 48);

•

FINDS AS MOOT Union Pacific’s motion for
summary judgment on any claims regarding
the tread pattern on the locomotive walkway
(ECF No. 46);

•

FINDS AS MOOT LeDure’s motion for partial
summary judgment (ECF No. 50);

•

FINDS AS MOOT any other pending motions;

App. 21
•

DISMISSES this case WITH PREJUDICE;
and

•

DIRECTS the Clerk of Court to enter judgment
accordingly.

IT IS SO ORDERED.
DATED: JANUARY 31, 2019
s/ J. Phil Gilbert
J. PHIL GILBERT
DISTRICT JUDGE

App. 22

App. 23
UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF ILLINOIS
Case No. 3:17-cv-00737-JPG-GCS
BRADLEY LEDURE,
Plaintiff,
v.
UNION PACIFIC RAILROAD COMPANY,
Defendant.
MEMORANDUM AND ORDER

J. PHIL GILBERT, DISTRICT JUDGE
Federal Rule of Civil Procedure 59(e) “is not a
procedural folly to be filed by a losing party who simply
disagrees with the decision; otherwise, the Court would
be inundated with motions from dissatisfied litigants.”
Erlandson v. ConocoPhillips Co., No. 09-99-DRH, 2010
WL 4292827, at *1 (S.D. Ill. Oct. 21, 2010) (citing Yorke
v. Citibank, N.A. (In re BNT Terminals, Inc.), 125 B.R.
963, 977 (N.D.Ill. 1990)). Nor is it a vehicle for a losing
party to misrepresent a district court’s opinion, and
then seek a review based on those misrepresentations.
But plaintiff Bradley LeDure uses Rule 59(e) here for
those purposes anyways. This Court previously granted
summary judgment in favor of defendant Union Pacific
Railroad Company, and LeDure has since filed a motion
to alter or amendment the judgment under the rule. (ECF
No. 88.)

App. 24
Instead, Rule 59(e) allows the Court to amend a
judgment if the movant “can demonstrate a manifest error
of law or present newly discovered evidence.” Obriecht
v. Raemisch, 517 F.3d 489, 494 (7th Cir. 2008). A “manifest
error” is a “wholesale disregard, misapplication, or failure
to recognize controlling precedent.” Burritt v. Ditlefsen,
807 F.3d 239, 253 (7th Cir. 2015) (internal quotations and
citations omitted). This form of relief is only available
if the movant clearly establishes the manifest error.
Harrington v. City of Chicago, 433 F.3d 542, 546 (7th Cir.
2006) (citing Romo v. Gulf Stream Coach, Inc., 250 F.3d
1119, 1122 n. 3 (7th Cir. 2001)).
LeDure meets none of those standards, and instead
misunderstands or misrepresents both this Court’s prior
order and the binding caselaw that it relied on. It is
unnecessary to address every single one of LeDure’s
arguments—many of them are rehashes of LeDure’s
summary judgment arguments, and the Court reaffirms
its prior order for all of the reasons therein—but in order
to ensure that the Court’s order is not warped in any
potential appellate briefs, it is necessary to highlight a
few of LeDure’s arguments: one regarding unpublished
district court decisions; one regarding citations; one
regarding the nature of the Locomotive Inspection Act,
and one regarding the facts of this case.
First, LeDure complains that the Court did not
consider a number of unpublished district court
cases within the Seventh Circuit, such as Underhill v.
CSX Transportation, Inc., No. 1:05-CV-196-TS, 2006
WL 1128619 (N.D. Ind. April 24, 2006) and Zanden
v. Norfolk & Western Rwy. Co., No. 93 C 4572, 1996
WL 699604 (N.D. Ill. Nov. 26, 1996). This is a non-starter.
As the Court explained in its prior order, the specific
question in this case—whether the locomotive was “in
use” at the time of the accident—has led many United
States Courts of Appeals to inconsistent outcomes with

App. 25
very little guidance. (ECF No. 85, p. 6–7.) And because of
that, district courts around the country—many of them
in nonprecedential unpublished decisions—are also all
over the place in terms of their analysis. For that reason,
the Court explained that it would focus its attention
on the published appellate cases instead of these
nonprecedential district court opinions, explaining: “[b]
oth parties in this case accordingly point to an abundance
of district court opinions in their favor, but given their
sheer number and contrasting outcomes, none of them
are very instructive.” (ECF No. 85, p. 7.) The Court
did not make any manifest errors by rejecting these
nonprecedential district court opinions.
Second, LeDure made the following argument:
The Court also manifestly erred in concluding that
the locomotive would not be in use if precedent
from other circuits was applied (Doc. 85 at 9). Most
egregiously, in citing McGrath v. Consolidated
Rail Corp., 136 F.3d 838, 842 (1st Cir. 1998), the
Order mischaracterized the holding as finding a
locomotive not in use “if the train is not ready
to move into service.” To the contrary, McGrath
found the locomotive was in use because it “was
not being stored on the yard track or awaiting
removal to the engine house for repairs. Rather
[it] was running on the yard track and ready to
move into service.” Id.
(ECF No. 88, p. 8.) That is incorrect. Even a cursory
review of the Court’s prior order shows that it accurately
explained McGrath as holding “if the locomotive is
running on the yard track and ready to move into
service, and the worker was injured while performing
pre-departure inspection duties, then the locomotive is
‘in use.’” (ECF No. 85., p. 7.) And then two pages later—
the page that LeDure complains about—the Court used

App. 26
parentheticals to explain how each of these circuit court
cases, such as McGrath, would come out if faced with
the facts of this case. (Id. at p. 9.) LeDure’s argument that
this was a “most egregious” error by the Court is either a
misrepresentation or a misunderstanding.
Third, one of the issues in this case was the application
of regulations promulgated under the Locomotive
Inspection Act, 49 U.S.C. § 20701. The opening of that
statute instructs that a locomotive must be in use for it to
apply, and then it delegates authority to the Secretary of
Transportation to promulgate regulations to implement
the statute. The Court accordingly had concerns as to
whether LeDure’s cited regulations—promulgated by the
Secretary of Transportation pursuant to the Locomotive
Inspection Act—would even apply to this case if the
Court found that the locomotive was not in use at the
time of the accident. The Court asked both parties about
this at oral argument, and ultimately agreed with the
following response by the defendant:
[DEFENDANT]: And I would just say we disagree
[with the plaintiff] that these regulations would
apply if you find the locomotive was not in use.
THE COURT: So, you are saying if I find the
locomotive not in use, then the LIA claims go
away; is that what you are saying?
[DEFENDANT]: Yes, because those regulations
are pursuant to the FRA’s authority to promulgate
regulations pursuant to the LIA. And, in fact, two
of these regulations, the first two, I think, just
simply regurgitate the Locomotive Inspection Act,
the same language.
(ECF No. 87, 62:9–19.) For that reason, and because
the Court found that the locomotive was not “in use”
here, the Court found it unnecessary to address any

App. 27
of the arguments pertaining to the specifics of those
regulations—including 49 C.F.R. § 229.119(c), which
LeDure centers most of his complaints on, and 49 C.F.R.
§ 229.21, which LeDure accuses the Court of dismissing
“without discussion or analysis.” (ECF No. 88, p. 13.)
Finally, the last issue is one of fact. The Court
previously dismissed LeDure’s negligence claim because
there was zero evidence in this case that anyone had
any notice of the “small slick spot” on the walkway—a
substance that LeDure could not even identify—before
he slipped on it. That lack of evidence was particularly
concerning here because (1) LeDure admitted that he did
not see anything coming out of the engine compartments;
(2) a Union Pacific representative testified that there were
no components in the architecture of the locomotive near
that area that could have leaked and caused the “slick
spot”; and (3) LeDure wore these same boots around his
farm, adding yet another wrinkle to the myriad of ways
that this slick spot could have allegedy gotten onto the
walkway. (See ECF No. 85, pp. 10–13.) The Court then
explained that the plaintiff’s case here was even weaker
than the situation in Holbrook v. Norfolk Southern
Railway Co., 414 F.3d 739, 742 (7th Cir. 2005), in which
the Seventh Circuit dismissed Holbrook’s claim because
he had not shown “circumstances which a reasonable
person would foresee as creating a potential for harm”—
specifically because “there is absolutely no evidence that
the grease was on the ladder before Holbrook stepped on
it. And even assuming that the grease was on the ladder
before Holbrook stepped on it, there are a myriad of
possible ways the substance could have gotten onto the
ladder….” Id. at 744–45. Holbrook governs and forecloses
LeDure’s argument.
LeDure objects, but only one of those objections
deserves particular attention: “the Court disregarded the
fact that oil had previously been discovered on the same

App. 28
area of this locomotive before the incident, supporting
a reasonable inference that this locomotive either had
a source leaking oil or that Defendant had insufficient
clean up practices.” (ECF No. 88, p. 16.) But LeDure’s
statement is not an honest depiction of that evidence: he
fails to mention that this prior discovery occurred three
years before the incident in this case. (ECF No. 55-5.) He
did the same in his response to the motion for summary
judgment. (ECF No. 55, p. 4.) It is highly questionable
whether this evidence from three years prior—with
no further explanation from LeDure—is even relevant
to the accident in this case. Instead, LeDure merely
speculates that they are related, and speculates that a
prior inspection would have revealed the substance and
stopped the fall. But as Holbrook explained, and as the
Supreme Court has mandated, “[s]peculation cannot
supply the place of proof.” Moore v. Chesapeake & O. Ry.
Co., 340 U.S. 573, 577 (1951).
CONCLUSION
For the foregoing reasons, the Court DENIES
plaintiff Bradley LeDure’s motion to alter or amend the
judgment. (ECF No. 88.)
IT IS SO ORDERED.
DATED: May 20, 2019
s/ J. Phil Gilbert
J. PHIL GILBERT
DISTRICT JUDGE

App. 29
UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT
CHICAGO, ILLINOIS 60604
July 16, 2020
Before
WILLIAM J. BAUER, Circuit Judge
MICHAEL S. KANNE, Circuit Judge
AMY CONEY BARRETT, Circuit Judge
No. 19-2164
BRADLEY LEDURE,
Plaintiff-Appellant,
v.
UNION PACIFIC RAILROAD COMPANY,
Defendant-Appellee.
Appeal from the United States District Court
for the Southern District of Illinois.
No. 3:17-cv-00737-JPG-GCS
J. Phil Gilbert, Judge.
ORDER
On consideration of plaintiff-appellant’s petition for
rehearing and petition for rehearing en banc filed on July
1, 2020, in connection with the above-referenced case,
no judge in active service has requested a vote on the
petition for rehearing en banc,* and all of the judges on

*

Circuit Judge Amy J. St. Eve did not participate in the
consideration of this petition for rehearing.

App. 30
the original panel have voted to DENY the petition for
rehearing. It is, therefore, ORDERED that the petition
for rehearing and the petition for rehearing en banc are
DENIED.

App. 31
STATUTES AND REGULATIONS INVOLVED
Title 45 United States Code, Section 51
Liability of common carriers by railroad, in
interstate or foreign commerce, for injuries to
employees from negligence; employee defined
Every common carrier by railroad while engaging
in commerce between any of the several States
or Territories, or between any of the States and
Territories, or between the District of Columbia
and any of the States or Territories, or between
the District of Columbia or any of the States or
Territories and any foreign nation or nations,
shall be liable in damages to any person suffering
injury while he is employed by such carrier in
such commerce, or, in case of the death of such
employee, to his or her personal representative,
for the benefit of the surviving widow or husband
and children of such employee; and, if none,
then of such employee’s parents; and, if none,
then of the next of kin dependent upon such
employee, for such injury or death resulting in
whole or in part from the negligence of any of
the officers, agents, or employees of such carrier,
or by reason of any defect or insufficiency, due
to its negligence, in its cars, engines, appliances,
machinery, track, roadbed, works, boats, wharves,
or other equipment.
Any employee of a carrier, any part of whose
duties as such employee shall be the furtherance
of interstate or foreign commerce; or shall, in any
way directly or closely and substantially, affect
such commerce as above set forth shall, for the
purposes of this chapter, be considered as being
employed by such carrier in such commerce and

App. 32
shall be considered as entitled to the benefits of
this chapter.
Title 45 United States Code, Section 53
Contributory negligence; diminution of damages
In all actions on and after April 22, 1908 brought
against any such common carrier by railroad
under or by virtue of any of the provisions of this
chapter to recover damages for personal injuries
to an employee, or where such injuries have
resulted in his death, the fact that the employee
may have been guilty of contributory negligence
shall not bar a recovery, but the damages shall be
diminished by the jury in proportion to the amount
of negligence attributable to such employee:
Provided, That no such employee who may be
injured or killed shall be held to have been guilty
of contributory negligence in any case where the
violation by such common carrier of any statute
enacted for the safety of employees contributed
to the injury or death of such employee.
Title 45 United States Code, Section 54a
Certain Federal and State regulations deemed
statutory authority
A regulation, standard, or requirement in force,
or prescribed by the Secretary of Transportation
under chapter 201 of title 49 or by a State
agency that is participating in investigative and
surveillance activities under section 20105 of title
49, is deemed to be a statute under sections 53
and 54 of this title.

App. 33
Title 49 United States Code, Section 20301
Definition and Nonapplication
(a) DEFINITION.— In this chapter, “vehicle” means
a car, locomotive, tender, or similar vehicle.
(b) NONAPPLICATION.—This chapter does not apply
to the following:
(1) a train of 4-wheel coal cars.
(2) a train of 8-wheel standard logging cars if
the height of each car from the top of the rail
to the center of the coupling is not more than
25 inches.
(3) a locomotive used in hauling a train
referred to in clause (2) of this subsection
when the locomotive and cars of the train are
used only to transport logs.
(4) a car, locomotive, or train used on a street
railway.
Title 49 United States Code, Section 20302
General Requirements
(a) GENERAL.—Except as provided in subsection
(c) of this section and section 20303 of this title,
a railroad carrier may use or allow to be used on
any of its railroad lines—
(1) a vehicle only if it is equipped with—
(A) couplers coupling automatically by
impact, and capable of being uncoupled,
without the necessity of individuals going
between the ends of the vehicles;
(B) secure sill steps and efficient hand
brakes; and

App. 34
(C) secure ladders and running boards
when required by the Secretary of
Transportation, and, if ladders are required,
secure handholds or grab irons on its roof
at the top of each ladder;
(2) except as otherwise ordered by the
Secretary, a vehicle only if it is equipped with
secure grab irons or handholds on its ends
and sides for greater security to individuals in
coupling and uncoupling vehicles;
(3) a vehicle only if it complies with the
standard height of drawbars required by
regulations prescribed by the Secretary;
(4) a locomotive only if it is equipped with a
power-driving wheel brake and appliances for
operating the train-brake system; and
(5) a train only if—
(A) enough of the vehicles in the train are
equipped with power or train brakes so that
the engineer on the locomotive hauling the
train can control the train’s speed without
the necessity of brake operators using the
common hand brakes for that purpose; and
(B) at least 50 percent of the vehicles in
the train are equipped with power or train
brakes and the engineer is using the power
or train brakes on those vehicles and on all
other vehicles equipped with them that are
associated with those vehicles in the train.
(b) REFUSAL TO RECEIVE VEHICLES NOT PROPERLY
EQUIPPED.—
A railroad carrier complying with subsection
(a)(5)(A) of this section may refuse to receive from

App. 35
a railroad line of a connecting railroad carrier or
a shipper a vehicle that is not equipped with
power or train brakes that will work and readily
interchange with the power or train brakes in use on
the vehicles of the complying railroad carrier.
(c) COMBINED VEHICLES LOADING
COMMODITIES.—

AND

HAULING LONG

Notwithstanding subsection (a)(1)(B) of
this section, when vehicles are combined to
load and haul long commodities, only one of
the vehicles must have hand brakes during the
loading and hauling.
(d) AUTHORITY TO CHANGE REQUIREMENTS.—The
Secretary may—
(1) change the number, dimensions, locations,
and manner of application prescribed by the
Secretary for safety appliances required by
subsection (a)(1)(B) and (C) and (2) of this
section only for good cause and after providing
an opportunity for a full hearing;
(2) amend regulations for installing,
inspecting, maintaining, and repairing power
and train brakes only for the purpose of
achieving safety; and
(3) increase, after an opportunity for a full
hearing, the minimum percentage of vehicles
in a train that are required by subsection
(a)(5)(B) of this section to be equipped and
used with power or train brakes.
(e) SERVICES OF ASSOCIATION OF AMERICAN RAILROADS.—
In carrying out subsection (d)(2) and (3) of this
section, the Secretary may use the services of
the Association of American Railroads.

App. 36
Title 49 United States Code, Section 20701
Requirements for use
A railroad carrier may use or allow to be used
a locomotive or tender on its railroad line only
when the locomotive or tender and its parts and
appurtenances—
(1) are in proper condition and safe to operate
without unnecessary danger of personal injury;
(2) have been inspected as required under
this chapter and regulations prescribed by
the Secretary of Transportation under this
chapter; and
(3) can withstand every test prescribed by the
Secretary under this chapter.
Title 49 Code of Federal Regulations, Section 229.1
Scope
This part prescribes minimum Federal safety
standards for all locomotives except those
propelled by steam power.
Title 49 Code of Federal Regulations, Section
229.21
Daily inspection
(a) Except for MU locomotives, each locomotive
in use shall be inspected at least once during each
calendar day. A written report of the inspection
shall be made. This report shall contain the
name of the carrier; the initials and number of
the locomotive; the place, date and time of the
inspection; a description of the non-complying
conditions disclosed by the inspection; and the
signature of the employee making the inspection.
Except as provided in §§229.9, 229.137, and

App. 37
229.139, any conditions that constitute noncompliance with any requirement of this part
shall be repaired before the locomotive is used.
Except with respect to conditions that do not
comply with §229.137 or §229.139, a notation shall
be made on the report indicating the nature of
the repairs that have been made. Repairs made
for conditions that do not comply with §229.137
or §229.139 may be noted on the report, or in
electronic form. The person making the repairs
shall sign the report. The report shall be filed and
retained for at least 92 days in the office of the
carrier at the terminal at which the locomotive is
cared for. A record shall be maintained on each
locomotive showing the place, date and time of
the previous inspection.
(b) Each MU locomotive in use shall be inspected
at least once during each calendar day and a
written report of the inspection shall be made.
This report may be part of a single master report
covering an entire group of MU’s. If any noncomplying conditions are found, a separate,
individual report shall be made containing the
name of the carrier; the initials and number of
the locomotive; the place, date, and time of the
inspection; the non-complying conditions found;
and the signature of the inspector. Except as
provided in §§229.9, 229.137, and 229.139, any
conditions that constitute non-compliance with
any requirement of this part shall be repaired
before the locomotive is used. Except with respect
to conditions that do not comply with §229.137 or
§229.139, a notation shall be made on the report
indicating the nature of the repairs that have been
made. Repairs made for conditions that do not
comply with § 229.137 or § 229.139 may be noted

App. 38
on the report, or in electronic form. A notation
shall be made on the report indicating the nature
of the repairs that have been made. The person
making the repairs shall sign the report. The
report shall be filed in the office of the carrier at
the place where the inspection is made or at one
central location and retained for at least 92 days.
(c) Each carrier shall designate qualified persons
to make the inspections required by this section.
Title 49 Code of Federal Regulations, Section
229.119
Cabs, floors, and passageways
(a) Cab seats shall be securely mounted and
braced. Cab doors shall be equipped with a secure
and operable latching device.
(b) Cab windows of the lead locomotive shall
provide an undistorted view of the right-of-way
for the crew from their normal position in the cab.
(See also, Safety Glazing Standards, 49 CFR part
223, 44 FR 77348, Dec. 31, 1979.)
(c) Floors of cabs, passageways, and
compartments shall be kept free from oil, water,
waste or any obstruction that creates a slipping,
tripping or fire hazard. Floors shall be properly
treated to provide secure footing.
(d) Any occupied locomotive cab shall be
provided with proper ventilation and with a
heating arrangement that maintains a temperature
of at least 60 degrees Fahrenheit 6 inches above
the center of each seat in the cab compartment.
(e) Similar locomotives with open-end platforms
coupled in multiple control and used in road
service shall have a means of safe passage

App. 39
between them; no passageway is required through
the nose of car body locomotives. There shall be a
continuous barrier across the full width of the end
of a locomotive or a continuous barrier between
locomotives.
(f) Containers shall be provided for carrying
fusees and torpedoes. A single container may be
used if it has a partition to separate fusees from
torpedoes. Torpedoes shall be kept in a closed
metal container.
(g) Each locomotive or remanufactured
locomotive placed in service for the first time
on or after June 8, 2012, shall be equipped with
an air conditioning unit in the locomotive cab
compartment.
(h) Each air conditioning unit in the locomotive
cab on a locomotive identified in paragraph (g)
of this section shall be inspected and maintained
to ensure that it operates properly and meets or
exceeds the manufacturer’s minimum operating
specifications during the periodic inspection
required for the locomotive pursuant to § 229.23
of this part.
(i) Each locomotive or remanufactured
locomotive ordered on or after June 8, 2012, or
placed in service for the first time on or after
December 10, 2012, shall be equipped with a
securement device on each exterior locomotive
cab door that is capable of securing the door from
inside of the cab.

App. 40

